N o. 1 9 -2 9 2
IN

T HE

S u pre me C o urt of t he U nite d St ate s
R

T

OX A N NE

OR R ES

,

I C HA R D

W

P etiti o n e r,

v.
JA

NI C E

M

A D RI D A N D

R

I L LI A M S O N ,

R e s p o n d e nt s.

O n P e ti ti o n f o r W ri t of C e r ti o r a ri t o t h e
U ni t e d S t a t e s C o u r t of A p p e al s
f o r t h e T e n t h Ci r c ui t
B RI E F F O R A MI CI C U RI A E F O U R T H
A M E N D M E N T S C H O L A RS I N S U P P O R T O F
P E TI TI O N E R
G I N G E R D. A N D E R S
C o u n s el of R e c o r d
M U N G E R ,T OL L ES & O LS O N L L P
1 1 5 5 F S t r e e t N W, 7 t h Fl o o r
W a s hi n g t o n, D. C. 2 0 0 0 4
( 2 0 2) 2 2 0-1 1 0 0
gi n g e r. a n d e r s @ m t o. c o m
D A V I D P. T H O R E S O N
d a vi d. t h o r e s o n @ m t o. c o m
B R I A N J. S P R I N G E R
b ri a n. s p ri n g e r @ m t o. c o m
M U N G E R ,T OL L ES & O LS O N L L P
3 5 0 S. G r a n d A v e., 5 0 t h Fl o o r
L o s A n g el e s, C A 9 0 0 7 1
( 2 1 3) 6 8 3-9 1 0 0
C o u n s el f o r A mi ci C u ri a e F o u rt h A m e n d m e nt S c h ol a r s

i
T A B L E O F C O N T E N TS
Page
T A B L E O F A U T H O RI T I E S ..................................... iii
I N T E R E S T O F A M I C I C U R I A E ...............................1
I N T R O D U C TI O N A N D S U M M A R Y O F T H E
A R G U M E N T ..............................................................1
A R G U M E N T ..............................................................3
I. I n H o d a ri D. , t hi s C o u rt r e c o g ni z e d a
c o m m o n- l a w di sti n cti o n b et w e e n
s ei z u r e s eff e ct e d b y p h y si c al f o r c e a n d
s ei z u r e s eff e ct e d b y s h o w of a ut h o rit y,
wit h t h e l att e r r e q ui ri n g a d diti o n al
p r e r e q ui sit e s. ...................................................3
I I. Ot h e r F o u rt h A m e n d m e nt c o m m o n l a w a n alo g u e s utili z e a si mil a r
a n al yti c al f r a m e w o r k t o t h e o n e
e m pl o y e d b y t hi s C o u rt i n H o d a ri D. ..............8
A. Li k e a c o m m o n -l a w a r r e st, t h e
c o m m o n- l a w f al s e i m p ri s o n m e nt
t o rt di sti n g ui s h e s b et w e e n
r e st r ai nt b y f o r c e a n d r e st r ai nt b y
f e a r, wit h t h e l att e r r e q ui ri n g
a d diti o n al i n q ui ri e s. ...................................8
B. Si mil a r t o a “ s ei z u r e” u n d e r t h e
F o u rt h A m e n d m e nt, a “ s e a r c h”
u n d e r t h e F o u rt h A m e n d m e nt c a n
r e s ult f r o m a c o m m o n -l a w t r e s p a s s
o r f r o m a n i n v a si o n of t h e ri g ht t o
p ri v a c y. .....................................................1 3

ii
I I I. I s s u e s c o n c e r ni n g p oli c e offi c e r s’ u s e of
f o r c e i n a n att e m pt t o s u b d u e s u s p e ct s
r e c u r f r e q u e ntl y, a n d t h e T e nt h
Ci r c uit’ s d e ci si o n will i n s ul at e s u c h
c o n d u ct f r o m c o n stit uti o n al s c r uti n y. ...........1 6
C O N C L U S I O N .........................................................2 2

iii
T A B L E O F A U T H O RI TI E S
P a g e( s)
F

E D E R A L

C

AS ES

E st at e of Al v a r a d o v. T a c k ett ,
N o. 1 3 -C V -0 1 2 0 2, 2 0 1 5 W L
1 3 2 3 1 9 8 4 ( S. D. C al. A p r. 2 7, 2 0 1 5),
r e v’ d a n d r e m a n d e d s u b n o m . E st at e
of Al v a r a d o v. S h a v att , 6 7 3 F e d.
A p p’ x 7 7 7 ( 9t h Ci r. 2 0 1 7) ..................................... 1 8
Al v a r e z v. M o nt g o m e r y C nt y. ,
1 4 7 F. 3 d 3 5 4 ( 4t h Ci r. 1 9 9 8) .................................. 9
B r e n dli n v. C alif o r ni a ,
5 5 1 U. S. 2 4 9 ( 2 0 0 7) ................................................ 4
B r o o k s v. G a e n zl e ,
N o. 0 6 -C V -0 1 4 3 6, 2 0 0 9 W L 3 1 5 8 1 3 8
( D. C ol o. S e pt. 2 9, 2 0 0 9), aff’ d i n
p a rt, r e v’ d i n p a rt , 6 1 4 F. 3 d 1 2 1 3
( 1 0t h Ci r. 2 0 1 0) .................................................... 1 8
B r o w ell v. D a vi d s o n ,
5 9 5 F. S u p p. 2 d 9 0 7 ( N. D. I n d. 2 0 0 9) .................. 1 8
B r o w n v. Cit y of L a s C r u c e s P oli c e D e p’t ,
N o. 1 7 -C V -0 0 9 4 4, 2 0 1 9 W L 3 9 5 6 1 6 7
( D. N. M. A u g. 2 1), r e p o rt a n d
r e c o m m e n d ati o n a d o pt e d i n p a rt,
r ej e ct e d i n p a rt , 2 0 1 9 W L 4 29 6 8 5 8
( D. N. M. S e pt. 1 1, 2 0 1 9) ....................................... 1 6

iv
B y r d v. U nit e d St at e s ,
1 3 8 S. Ct. 1 5 1 8 ( 2 0 1 8) .......................................... 1 5
C alif o r ni a v. H o d a ri D. ,
4 9 9 U. S. 6 2 1 ( 1 9 9 1) ...................................... p a s si m
C a r p e nt e r v. U nit e d St at e s ,
1 3 8 S. Ct. 2 2 0 6 ( 2 0 1 8) .......................................... 1 4
C a r rill o -O rti z v. N. M. St at e P oli c e ,
N o. 1 8 -C V -0 0 3 3 4, 2 0 1 9 W L 4 3 9 3 9 8 9
( D. N. M. S e pt. 1 3, 2 0 1 9) ................................. 1 8, 2 0
C o u nt y of L o s A n g el e s v. M e n d e z ,
1 3 7 S. Ct. 1 5 3 9 ( 2 0 1 7) .......................................... 2 1
C o u nt y of S a c r a m e nt o v. L e wi s ,
5 2 3 U. S. 8 3 3 ( 1 9 9 8) ........................................ 1 9, 2 0
D u k e s v. Mi a mi -D a d e C o u nt y ,
N o. 0 5 -C V -2 2 6 6 5, 2 0 0 7 W L 9 7 0 1 8 1 3
( S. D. Fl a. D e c. 2 6, 2 0 0 7) ...................................... 1 8
F a r r ell v. D et a vi s ,
N o. 1 5 -C V -0 1 1 1 3, 2 0 1 6 W L
1 0 8 5 9 7 8 9 ( D. N. M. A u g. 3 0, 2 0 1 6),
r e v’ d s u b n o m . F a r r ell v. M o nt o y a ,
8 7 8 F. 3 d 9 3 3 ( 1 0t h Ci r. 2 0 1 7) .............................. 1 8
Fl o ri d a v. J a r di n e s ,
5 6 9 U. S. 1 ( 2 0 1 3) ...................................... 1 4, 1 5, 1 6
G r a h a m v. C o n n o r ,
4 9 0 U. S. 3 8 6 ( 1 9 8 9) ........................................ 1 9, 2 0

v
J o h n s o n v. B a r n e s & N o bl e B o o k s ell e r s,
I n c. ,
4 3 7 F. 3 d 1 1 1 2 ( 1 1t h Ci r. 2 0 0 6) .......................... 8, 9
K at z v. U nit e d St at e s ,
3 8 9 U. S. 3 4 7 ( 1 9 6 7) ........................................ 1 4, 1 5
K r a h n v. M ei x ell ,
N o. 1 0 -C V -0 0 1 4 0, 2 0 1 4 W L 5 8 4 0 7 5 6
( D. D el. N o v. 1 0, 2 0 1 4) ......................................... 1 8
K yll o v. U nit e d St at e s ,
5 3 3 U. S. 2 7 ( 2 0 0 1) ................................................ 1 4
L u c e r o Y R ui z D e G uti e r r e z v.
Al b u q u e r q u e P u b. S c h. ,
N o. 1 8 -C V -0 0 0 7 7, 2 0 1 9 W L 2 0 3 1 7 1
( D. N. M. J a n. 1 5, 2 0 1 9) ......................................... 1 8
Mi c hi g a n v. C h e st e r n ut ,
4 8 6 U. S. 5 6 7 ( 1 9 8 8) ................................................ 6
P at ri c k v. E s s o St a n d a r d Oil C o. ,
1 5 6 F. S u p p. 3 3 6 ( D. N. J. 1 9 5 7) ........................... 1 1
P e a r s o n v. C all a h a n ,
5 5 5 U. S. 2 2 3 ( 2 0 0 9) .............................................. 2 1
S mit h v. M a r y l a n d,
4 4 2 U. S. 7 3 5 ( 1 9 7 9) .............................................. 1 4
T e r r y v. O hi o ,
3 9 2 U. S. 1 ( 1 9 6 8) .................................... 6, 9, 1 5, 2 0

vi
T r a h a n v. B ell s o ut h T el e c o m m., I n c. ,
8 8 1 F. S u p p. 1 0 8 0 ( W. D. L a.), aff’ d ,
7 1 F. 3 d 8 7 6 ( 5t h Ci r. 1 9 9 5) .................................. 1 1
U nit e d St at e s v. B r o w n ,
N o. 1 2 -C R -2 0 3 4 2, 2 0 1 3 W L 4 8 9 8 2 8
( E. D. Mi c h. F e b. 8, 2 0 1 3) ..................................... 1 8
U nit e d St at e s v. D u p r e e ,
N o. 0 8 -C R -0 0 2 8 0, 2 0 0 9 W L 2 3 9 3 4 4 1
( E. D. P a. A u g. 4, 2 0 0 9), aff’ d , 6 1 7
F. 3 d 7 2 4 ( 3 d Ci r. 2 0 1 0) ........................................ 1 8
U nit e d St at e s v. J a c o b s e n ,
4 6 6 U. S. 1 0 9 ( 1 9 8 4) ................................................ 9
U nit e d St at e s v. J o n e s ,
5 6 5 U. S. 4 0 0 ( 2 0 1 2) ........................................ 1 4, 1 5
U nit e d St at e s v. M e n d e n h all ,
4 4 6 U. S. 5 4 4 ( 1 9 8 0) ...................................... p a s si m
U nit e d St at e s v. O r a n g e ,
N o. 1 7 -C R -0 0 0 0 5, 2 0 1 8 W L 4 6 9 1 6 3 4
( S. D. G a. A u g. 2 1), r e p o rt a n d
r e c o m m e n d ati o n a d o pt e d , 2 0 1 8 W L
4 6 8 8 7 2 6 ( S. D. G a. S e pt. 2 8, 2 0 1 8) ................. 1 8, 1 9
U nit e d St at e s v. Si n gl et a r y ,
3 7 F. S u p p. 3 d 6 0 1 ( W. D. N . Y. 2 0 1 4) ............. 1 8, 1 9
W all a c e v. K at o ,
5 4 9 U. S. 3 8 4 ( 2 0 0 7) ................................................ 8

vii
S

T A T E

C

AS ES

Di a z v. L o c k h e e d El e c s. ,
6 1 8 P. 2 d 3 7 2 ( N. M. Ct. A p p. 1 9 8 0) .................. 9, 1 0
D ol g e n c o r p, I n c. v. P o u n d e r s ,
9 1 2 S o. 2 d 5 2 3 ( Al a. Ci v. A p p. 2 0 0 5) .................... 1 1
F e r mi n o v. F e d c o, I n c. ,
8 7 2 P. 2 d 5 5 9 ( C al. 1 9 9 4) ...................................... 1 1
H al e s v. M c C r o r y -M c L ell a n C o r p. ,
1 3 3 S. E. 2 d 2 2 5 ( N. C. 1 9 6 3) ............................ 1 0, 1 1
H e n s o n v. U nit e d St at e s ,
5 5 A. 3 d 8 5 9 ( D. C. 2 0 1 2) ....................................... 1 8
J o n e s e x r el. R o bi n s o n v. Wi n n -Di xi e
G r e e n vill e, I n c. ,
4 5 6 S. E. 2 d 4 2 9 ( S. C. Ct. A p p. 1 9 9 5) .................... 1 1
L u k a s v. J. C. P e n n e y C o. ,
3 7 8 P. 2 d 7 1 7 ( O r . 1 9 6 3) ....................................... 1 0
M a r c u s v. Li e b m a n ,
3 7 5 N. E. 2 d 4 8 6 ( Ill. A p p. Ct. 1 9 7 8) ..................... 1 2
M o nt g o m e r y W a r d v. Wil s o n ,
6 6 4 A. 2 d 9 1 6 ( M d. 1 9 9 5) ........................................ 9
N e w M e xi c o v. G a r ci a ,
2 1 7 P. 3 d 1 0 3 2 ( N. M. 2 0 0 9) .................................. 1 8
Si n cl ai r R efi ni n g C o. v. M e e k ,
1 0 S. E. 2 d 7 6 ( G a. A p p. 1 9 4 0) ................................. 9

viii
T o d d v. B y r d ,
6 4 0 S. E. 2 d 6 5 2 ( G a. Ct. A p p. 2 0 0 6),
o v e r r ul e d o n ot h e r g r o u n d s b y F e r r ell
v. Mi k ul a , 6 7 2 S. E. 2 d 7 ( G a. Ct. A p p.
2 0 0 8) ..................................................................... 1 2
Willi a m s v. F o o d Li o n, I n c. ,
4 4 6 S. E. 2 d 2 2 1 ( G a. Ct. A p p. 1 9 9 4) ..................... 1 1
IN

T E R N A TI O N A L

C

AS ES

G e n n e r v. S p a r k s
( 1 7 0 4) 8 7 E n g. R e p. 9 2 8 ( Q. B.); 6
M o d. 1 7 3 ................................................................. 4
S a n d o n v. J e r vi s
( 1 8 5 9) 1 2 0 E n g. R e p. 7 6 0; El. Bl. &
El. 9 4 2 ( Willi a m s, J.) ............................................. 4
C

O N S TI T U TI O N A L

P

R O VI SI O N S

U. S. C o n st. a m e n d. I V ....................................... p a s si m
T

R E A TI S E S

3 5 C. J. S. F al s e I m p ri s o n m e nt § 1 ( 2 0 1 9) .................... 8
3 5 C. J. S. F al s e I m p ri s o n m e nt § 5 ( 2 0 1 9) .................... 9
3 5 C. J. S. F al s e I m p ri s o n m e nt § 1 4 ( 2 0 1 9) ................ 1 0
3 5 C. J. S. F al s e I m p ri s o n m e nt § 1 7
( 2 0 1 9) .............................................................. 1 2, 1 3

ix
O

T H E R

A

U T H O RI TI E S

A vi d a n Y. C o v e r, R e c o n st r u cti n g t h e
Ri g ht A g ai n st E x c e s si v e F o r c e , 6 8
Fl a. L R e v . 1 7 7 3 ( 2 0 1 6) ....................................... 1 9
C y nt hi a L e e, R ef o r mi n g t h e L a w o n
P oli c e U s e of D e a dl y F o r c e: D e E s c al ati o n, P r e s ei z u r e C o n d u ct, a n d
I m p e rf e ct S elf -D ef e n s e , 2 0 1 8 U. Ill. L.
R e v. 6 2 9 ................................................................ 1 7
Mi c h a el D. W hit e, Hitti n g t h e T a r g et ( o r
N ot): C o m p a ri n g C h a r a ct e ri sti c s of
F at al, I nj u ri o u s, a n d N o ni nj u ri o u s
P oli c e S h o oti n g s ,
9 P oli c e Q. 3 0 3 ( 2 0 0 6) .......................................... 1 8
R a c h el A. H a r m o n, W h e n I s P oli c e
Vi ol e n c e J u stifi e d ? , 1 0 2 N w. U. L.
R e v. 1 1 1 9 ( 2 0 0 8) ................................................... 1 7
Willi a m B a u d e & J a m e s Y. St e r n , T h e
P o siti v e L a w M o d el of t h e F o u rt h
A m e n d m e nt, 1 2 9 H a r v. L. R e v. 1 8 2 1
( 2 0 1 6) .................................................................... 1 0

1
IN T E R E S T O F A MI CI C U RI A E 1
A mi ci c u ri a e a r e c ri mi n al p r o c e d u r e p r of e s s o r s a n d
s c h ol a r s w h o t e a c h, st u d y, a n d w rit e a b o ut t h e F o u rt h
A m e n d m e nt. 2 A mi ci b eli e v e t hi s c a s e p r e s e nt s f u n d am e nt al i s s u e s c o n c e r ni n g t h e s c o p e of a “ s ei z u r e” u n d e r
t h e F o u rt h A m e n d m e nt. A mi ci a r e of t h e vi e w t h at a
F o u rt h A m e n d m e nt “ s ei z u r e” h a s o c c u r r e d w h e n a s u sp e ct i s s h ot b y l a w e nf o r c e m e nt y et e v a d e s a r r e st.
I N T R O D U C TI O N A N D S U M M A R Y
OF T H E A R G U M E N T
I n C alif o r ni a v. H o d a ri D. , 4 9 9 U. S. 6 2 1 ( 1 9 9 1), t hi s
C o u rt a n s w e r e d t h e q u e sti o n p r e s e nt e d i n t hi s c a s e —
n a m el y, w h et h e r “ a n u n s u c c e s sf ul att e m pt t o d et ai n a
s u s p e ct b y u s e of p h y si c al f o r c e [ c o n stit ut e s] a ‘ s ei z u r e’
wit hi n t h e m e a ni n g of t h e F o u rt h A m e n d m e nt.” P et. f o r
C e rt. i. T h e C o u rt h el d t h at t h e c o m m o n l a w i s cl e a r
t h at “ a n a r r e st i s eff e ct e d b y t h e sli g ht e st a p pli c ati o n of
p h y si c al f o r c e, d e s pit e t h e a r r e st e e’ s e s c a p e.” H o d a ri D. ,
4 9 9 U. S. at 6 2 5.
I n t h e i nt e r v e ni n g y e a r s, h o w e v e r, t h e l o w e r c o u rt s
h a v e di vi d e d o n t h e q u e sti o n. T h e c o nf u si o n r e st s u p o n
a mi s u n d e r st a n di n g of a c riti c al di sti n cti o n t h at t h e
C o u rt d r e w b et w e e n s ei z u r e s eff e ct e d b y p h y si c al f o r c e
P u r s u a n t t o S u p r e m e C o u rt R ul e 3 7. 6, c o u n s el f o r a mi ci c uri a e st at e t h at n o c o u n s el f o r a p a rt y a ut h o r e d t hi s b ri ef i n w h ol e
o r i n p a rt, a n d n o p a rt y o r c o u n s el f o r a p a rt y, o r a n y ot h e r p e r s o n
ot h e r t h a n a mi ci c u ri a e o r it s c o u n s el, m a d e a m o n et a r y c o nt rib uti o n i nt e n d e d t o f u n d t h e p r e p a r ati o n o r s u b mi s si o n of t hi s
b ri ef. All p a rti e s h a v e c o n s e nt e d i n w riti n g t o t h e fili n g of t hi s
b ri ef.
2 A li st of a mi ci i s s et f o rt h i n t h e A p p e n di x. A p p., i nf r a, 1 a-4 a.
1

2
a n d s ei z u r e s eff e ct e d b y a s h o w of a ut h o rit y. F o r t h e
f o r m e r, t h e C o u rt e x pl ai n e d t h at t h e a p pli c ati o n of
p h y si c al f o r c e t o a p p r e h e n d a s u s p e ct i s it s elf s uffi c i e nt
t o e st a bli s h a s ei z u r e. F o r t h e l att e r, t h e C o u rt i d e ntifi e d a d diti o n al r e q ui r e m e nt s, i n cl u di n g t h at t h e s u bj e ct
a ct u all y yi el d t o a n offi c e r’ s s h o w of a ut h o rit y. T h e
C o u rt w a s cl e a r t h at t h e s u b mi s si o n r e q ui r e m e nt d o e s
n ot a p pl y i n c a s e s i n v ol vi n g p h y si c al f o r c e. A n d f o r g o o d
r e a s o n: s u b mi s si o n i s n ot n e c e s s a r y w h e n t h e offi c e r
u s e s p h y si c al f o r c e i n a n att e m pt t o c a pt u r e a s u s p e ct
b e c a u s e t h at f o r c e it s elf c o n stit ut e s t h e e x e rti o n of c o nt r ol o v e r t h e s u s p e ct’ s m o v e m e nt.
T h e C o u rt’ s di c h ot o m y b et w e e n s ei z u r e b y p h y si c al
f o r c e a n d s ei z u r e b y s h o w of a ut h o rit y i s p a r all el t o t h e
w a y ot h e r a n al o g o u s cl ai m s a r e t r e at e d. F o r e x a m pl e,
t h e c o m m o n-l a w t o rt of f al s e i m p ri s o n m e nt r e c o g ni z e s a
di sti n cti o n b et w e e n r e st r ai nt b y f o r c e a n d r e st r ai nt b y
f e a r. Si mil a rl y, t hi s C o u rt h a s r e c o g ni z e d t h at a c o mm o n -l a w t r e s p a s s, i. e., a p h y si c al i nt r u si o n, q u alifi e s a s
a F o u rt h A m e n d m e nt s e a r c h, b ut t h at a n e x p e ct ati o n of -p ri v a c y t e st s u p pl e m e nt s t h at t r a diti o n al u n d e rst a n di n g. T h e s e r el at e d a n al yti c al f r a m e w o r k s r ei nfo r c e t h e m et h o d ol o g y e m pl o y e d b y t h e C o u rt i n H o d a ri
D.
A d efi niti v e r uli n g t h at t h e a p pli c ati o n of p h y si c al
f o r c e t o r e st r ai n a s u s p e ct q u alifi e s a s a s ei z u r e w o ul d
p r o vi d e m u c h -n e e d e d cl a rit y o n t h e f r e q u e nt o c c a si o n s
i n w hi c h p oli c e offi c e r s u s e f o r c e a g ai n st s u s p e ct s. It
w o ul d al s o c o r r e ct t h e ill o gi c al r ul e t h at a n offi c e r’ s u s e
of f o r c e ( a n d e v e n d e a dl y f o r c e, i n M s. T o r r e s’ s c a s e) t o
s u b d u e a s u s p e ct f all s e nti r el y o ut si d e t h e a m bit of
F o u rt h A m e n d m e nt s c r uti n y w h e n e v e r t h e s u s p e ct h a pp e n s t o e s c a p e . T h e C o u rt’ s r e vi e w i s w a r r a nt e d t o d eci d e t hi s b a si c q u e sti o n a b o ut t h e s c o p e of a F o u rt h

3
A m e n d m e nt s ei z u r e a n d t o cl a rif y t h at t h e u s e of d e a dl y
f o r c e t o s u b d u e a p e r s o n f all s wit hi n it s r e a c h.
A R G U M E NT
I.

I n H o d a ri D. , t hi s C o u r t r e c o g ni z e d a c o mm o n -l a w di s ti n c ti o n b e t w e e n s ei z u r e s eff e c t e d b y p h y si c al f o r c e a n d s ei z u r e s eff e c t e d b y s h o w of a u t h o ri t y, wi t h t h e l a t t e r
r e q ui ri n g a d di ti o n al p r e r e q ui si t e s.

I n H o d a ri D. , t hi s C o u rt h el d t h at a s ei z u r e e nt ail s
e x e rti o n of p h y si c al c o nt r ol o v e r a p e r s o n t h at r e st r ai n s
t h at p e r s o n’ s m o v e m e nt. 4 9 9 U. S. at 6 2 4. T h e C o u rt
r e c o g ni z e d a di c h ot o m y, r o ot e d i n t h e c o m m o n l a w, b et w e e n s ei z u r e s eff e ct e d b y p h y si c al f o r c e a n d s ei z u r e s
eff e ct e d b y a s h o w of a ut h o rit y.
A s t h e C o u rt a rti c ul at e d, t h e a n al y si s f o r s e i z u r e s b y
p h y si c al f o r c e i s st r ai g htf o r w a r d: “ a n a r r e st i s eff e ct e d
b y t h e sli g ht e st a p pli c ati o n of p h y si c al f o r c e, d e s pit e t h e
a r r e st e e’ s e s c a p e.” I d. at 6 2 5. T h e C o u rt m a d e t h e p oi nt
r e p e at e dl y a n d e m p h ati c all y. S e e, e. g. , i d. at 6 2 6
(“[ W]it h r e s p e ct t o a p pli c ati o n of p h y si c al f o r c e, a s eiz u r e o c c u r s e v e n t h o u g h t h e s u bj e ct d o e s n ot yi el d.”); i d.
(“ T h e w o r d ‘ s ei z u r e’ r e a dil y b e a r s t h e m e a ni n g of a l a yi n g o n of h a n d s o r a p pli c ati o n of p h y si c al f o r c e t o r est r ai n m o v e m e nt, e v e n w h e n it i s ulti m at el y u n s u c c e s sf ul.”); i d. (“ A n a r r e st r e q ui r e s eit h e r p h y si c al f o r c e ( a s
d e s c ri b e d a b o v e) o r , w h e r e t h at i s a b s e nt, s u b mi s si o n t o
t h e a s s e rti o n of a ut h o rit y.”); i d. at 6 2 6 n. 2 (“t h e m e r e
t o u c hi n g of a p e r s o n w o ul d s uffi c e”); s e e al s o i d. at 6 4 5
( St e v e n s, J., di s s e nti n g) (“If a n offi c e r eff e ct s a n a r r e st
b y t o u c hi n g a citi z e n, a p p a r e ntl y t h e C o u rt w o ul d a c c e pt
t h e f a ct t h at a s ei z u r e o c c u r r e d, e v e n if t h e a r r e st e e
s h o ul d t h e r e aft e r b r e a k l o o s e a n d fl e e.”).

4
T h e C o u rt h a d n o t r o u bl e r e a c hi n g t hi s c o n cl u si o n
b e c a u s e it f l o w e d di r e ctl y f r o m t h e s ettl e d c o m m o n-l a w
d efi niti o n of a r r e st. Citi n g t r e ati s e s a n d F o u n di n g -e r a
c a s e s, t h e C o u rt e x pl ai n e d t h at c o m m o n -l a w a r r e st e nc o m p a s s e s “t h e m e r e g r a s pi n g o r a p pli c ati o n of p h y si c al
f o r c e wit h l a wf ul a ut h o rit y, w h et h e r o r n ot it su c c e e d e d
i n s u b d ui n g t h e a r r e st e e.” I d. at 6 2 4 ( m aj o rit y o pi ni o n). 3 E v e n t h e di s s e nti n g j u sti c e s a g r e e d wit h t h e
C o u rt’ s i nt e r p r et ati o n of t h e c o m m o n -l a w m e a ni n g of
a r r e st. S e e i d. at 6 3 0 – 3 1 ( St e v e n s, J., di s s e nti n g) (“[I]f
t h e offi c e r h a d s u c c e e d e d i n t o u c hi n g r e s p o n d e nt . . . —
e v e n if h e di d n ot s u b d u e hi m — a n a r r e st w o ul d h a v e
o c c u r r e d.”); i d. at 6 3 1 n. 5 ( q u oti n g a rti cl e t o t h e s a m e
eff e ct).
P ut a n ot h e r w a y, u s e of p h y si c al f o r c e t o a p p r e h e n d
a s u s p e ct it s elf d e m o n st r at e s t h e r e q ui sit e e x e rti o n of
p h y s i c al c o nt r ol o v e r t h e p e r s o n. W h e n a n offi c e r a ppli e s p h y si c al f o r c e t o d et ai n a s u s p e ct, t h e s u s p e ct’ s
“f r e e d o m of m o v e m e nt i s r e st r ai n e d.” U nit e d St at e s v.
M e n d e n h all , 4 4 6 U. S. 5 4 4, 5 5 3 ( 1 9 8 0). T h e offi c e r’ s u s e
of f o r c e r e st r ai n s t h e s u s p e ct b y hi n d e ri n g o r i m p e di n g
h e r m o v e m e nt, e v e n if o nl y t e m p o r a ril y. T h e r e i s n o r eq ui r e m e nt t h at t h e f o r c e s u c c e s sf ull y t e r mi n at e t h e s u sp e ct’ s m o v e m e nt. S e e B r e n dli n v. C alif o r ni a , 5 5 1 U. S.
2 4 9, 2 5 4 ( 2 0 0 7) ( st ati n g t h at a s ei z u r e o c c u r s w h e n a n

3 I n f a ct, ei g ht e e nt h - a n d ni n et e e nt h -c e nt u r y E n gli s h c a s e s al s o
m a d e cl e a r t h at p h y si c al t o u c hi n g c o n stit ut e s a s ei z u r e of t h e
p e r s o n. S e e, e. g. , S a n d o n v. J e r vi s ( 1 8 5 9) 1 2 0 E n g. R e p. 7 6 0, 7 6 2;
El. Bl. & El. 9 4 2, 9 4 7 ( Willi a m s, J.) (“It i s p e rf e ctl y cl e a r t h at . . .
t o u c hi n g t h e p e r s o n c o n stit ut e s a n a r r e st. ”); G e n n e r v. S p a r k s
( 1 7 0 4) 8 7 E n g. R e p. 9 2 8 ( Q. B.) 9 2 9; 6 M o d. 1 7 3 ( “[I]t w a s a g r e e d,
t h at if h e r e h e h a d b u t t o u c h e d t h e d ef e n d a nt e v e n wit h t h e e n d
of hi s fi n g e r, it h a d b e e n a n a r r e st. ”).

5
offi c e r’ s p h y si c al f o r c e “t e r mi n at e s o r r e st r ai n s” t h e p e rs o n’ s “f r e e d o m of m o v e m e nt” ( e m p h a si s a d d e d)). I nd e e d, a s t h e C o u rt o b s e r v e d i n H o d a ri D. , t h e w o r d “ s eiz u r e” it s elf “ r e a dil y b e a r s t h e m e a ni n g of a l a yi n g o n of
h a n d s o r a p pli c ati o n of p h y si c al f o r c e t o r e st r ai n m o v em e nt.” 4 9 9 U. S. at 6 2 6.
H a vi n g r e s ol v e d t h e st r ai g htf o r w a r d c at e g o r y of
c a s e s i n v ol vi n g p h y si c al f o r c e, t h e C o u rt t u r n e d t o t h e
f a ct s of t h e c a s e b ef o r e it, w hi c h di d n ot i n v ol v e a n offi c e r’ s u s e of p h y si c al f o r c e. I n st e a d, t h e q u e sti o n p r es e nt e d c e nt e r e d o n w h et h e r a p e r s o n w h o f ail e d t o yi el d
i n t h e f a c e of a n offi c e r’ s p u r s uit h a d n e v e rt h el e s s b e e n
s ei z e d. I d. at 6 2 3. I n ot h e r w o r d s, t h e C o u rt w a s a s k e d
t o cl a rif y h o w c o u rt s s h o ul d d et e r mi n e w h et h e r t h e r e
h a s b e e n a s ei z u r e i n c a s e s i n v ol vi n g s h o w of a ut h o rit y
w h e r e p h y si c al f o r c e i s a b s e nt. T h e C o u rt m a d e cl e a r
t h at t h e s e c a s e s s h o ul d b e t r e at e d diff e r e ntl y: “ T h e n a rr o w q u e sti o n b ef o r e u s i s w h et h e r, wit h r e s p e ct t o a
s h o w of a ut h o rit y a s wit h r e s p e ct t o a p pli c ati o n of p h y si c al f o r c e, a s ei z u r e o c cu r s e v e n t h o u g h t h e s u bj e ct d o e s
n ot yi el d. W e h ol d t h at it d o e s n ot.” I d. at 6 2 6. S p e cifi c all y, t h e C o u rt d e ci d e d t h at t w o a d diti o n al r e q ui r em e nt s m u st b e m et t o e n s u r e t h at t h e r e q ui sit e e x e rti o n
of c o nt r ol, o r r e st r ai nt o n m o v e m e nt, i s p r e s e nt i n a
s h o w -of -a ut h o rit y c a s e.
Fi r st, t h e C o u rt d e s c ri b e d o n e n e c e s s a r y c o n diti o n
t h at a r e a s o n a bl e p e r s o n r e a cti n g t o t h e offi c e r’ s s h o w of
a ut h o rit y “ w o ul d h a v e b eli e v e d t h at h e w a s n ot f r e e t o
l e a v e.” I d. at 6 2 8 ( q u oti n g M e n d e n h all , 4 4 6 U. S. at
5 5 4). 4 T hi s p r e r e q ui sit e r e c o g ni z e s t h at, i n c o nt r a st t o
4 Alt h o u g h t h e C o u rt i n M e n d e n h all
s u g g e st e d t h at “p h y si c al
t o u c hi n g of t h e p e r s o n of t h e citi z e n ” i s j u st o n e e x a m pl e of a “ci rc u m st a n c e[] t h at mi g ht i n di c at e a s ei z u r e,” 4 4 6 U. S. at 5 4 4, t h e

6
sit u ati o n s i n w hi c h p h y si c al f o r c e i s u s e d t o s e c u r e c o mpli a n c e, n ot e v e r y i nt e r a cti o n b et w e e n offi c e r s a n d citiz e n s a m o u nt s t o a s ei z u r e u n d e r t h e F o u rt h A m e n dm e nt. S e e T e r r y v. O hi o , 3 9 2 U. S. 1, 1 9 n. 1 6 ( 1 9 6 8). O n
t h e c o nt r a r y, m a n y s u c h n o n-p h y si c al, n o n -t h r e at e ni n g
e n c o u nt e r s c a n b e n o ni nt r u si v e, y et f r uitf ul, m e a n s t o
g at h e r i nf o r m ati o n. S e e M e n d e n h all , 4 4 6 U. S. at 5 5 4.
B y o bj e cti v el y e x a mi ni n g w h et h e r t h e offi c e r’ s w o r d s,
a ct s, a n d ot h e r c o n d u ct c o n v e y e d t o t h e s u bj e ct t h at
c o m pli a n c e i s m a n d at o r y, t h e n ot -f r e e-t o-l e a v e i n q ui r y
“ a s s e s s[ e s] t h e c o e r ci v e eff e ct of p oli c e c o n d u ct” a n d e ns u r e s t h at t h e s u s p e ct i s b ei n g c o m p ell e d ( n ot v ol u nt a ril y c h o o si n g) t o st a y. Mi c hi g a n v. C h e st e r n ut , 4 8 6 U. S.
5 6 7, 5 7 3 – 7 4 ( 1 9 8 8).
S e c o n d, t h e C o u rt h el d t h at, n ot wit h st a n di n g t h e o bj e cti v e i n q ui r y, a s ei z u r e h a s n ot o c c u r r e d if a s u bj e ct
d o e s n ot yi el d t o t h e offi c e r’ s s h o w of a ut h o rit y. H o d a ri
D. , 4 9 9 U. S. at 6 2 6. T hi s c o m pli a n c e a s p e ct of a s ei z u r e
b y s h o w of a ut h o rit y c o m e s f r o m t h e c o m m o n -l a w d efiniti o n of a r r e st, w hi c h r e q ui r e s “ s u b mi s si o n t o t h e a ss e rti o n of a ut h o rit y” w h e n p h y si c al f o r c e i s a b s e nt. I d.;
s e e al s o i d. at 6 2 6 – 2 7 (“ T h e r e c a n b e n o a r r e st wit h o ut
eit h e r t o u c hi n g o r s u b mi s si o n.” ( cit ati o n o mitt e d)). T h at
a d diti o n al r e q ui r e m e nt m a k e s l o gi c al s e n s e w h e r e n o
f o r c e i s u s e d: if t h e s u s p e ct r u n s a w a y, t h e offi c e r h a s
n ot r e st r ai n e d h e r m o v e m e nt. I m p o si n g t h e o bli g ati o n
t h at t h e s u s p e ct c h o o s e s t o st a y p ut c o nfi r m s t h at t h e
C o u rt di d n ot p r e cl u d e t h e n oti o n t h at p h y si c al t o u c hi n g m a y b e
s uffi ci e nt t o c o n stit u t e a s ei z u r e. E v e n a s s u mi n g t h e r e a r e e xa m pl e s of p h y si c al t o u c hi n g t h at a r e s o i n ci d e nt al o r mi n o r a s t o
n ot ri s e t o t h e l e v el of a “s ei z u r e, ” t h e offi c e r s’ u s e of d e a dl y f o r c e
t o p r e v e nt M s. T o r r e s ’s e s c a p e i n t hi s c a s e w o ul d pl ai nl y c o n stit ut e a n a d e q u at e a p pli c ati o n of p h y si c al f o r c e t o r e st r ai n h e r
m o v e m e nt.

7
offi c e r a ct u all y e x e rt s s o m e c o nt r ol o v e r h e r. T o p ut it
i n t h e C o u rt’ s w o r d s, i n c o nt r a st t o a n offi c e r’ s u s e of
p h y si c al f o r c e t o st o p a s u s p e ct, “ a p oli c e m a n y elli n g
‘ St o p, i n t h e n a m e of t h e l a w!’ at a fl e ei n g f o r m t h at c o nti n u e s t o fl e e” i s n ot a s ei z u r e. I d. at 6 2 6.
I m p o rt a ntl y, t h r o u g h o ut it s di s c u s si o n of t h e a d diti o n al r e q ui r e m e nt s f o r a s ei z u r e b y s h o w of a ut h o rit y,
t h e C o u rt w a s c a r ef ul n ot t o c a st d o u bt o n t h e cl e a r c o mm o n -l a w r ul e wit h r e s p e ct t o s ei z u r e b y p h y si c al f o r c e.
F o r e x a m pl e, i n r ej e cti n g t h e di s s e nt’ s eff o rt t o r el y o n
t h e c o m m o n l a w of att e m pt e d a r r e st, t h e C o u rt e xpl ai n e d t h at a n “ att e m pt e d a r r e st” ( u nli k e a n “ a r r e st”)
i s n ot s y n o n y m o u s wit h a “ s ei z u r e.” I d. at 6 2 6 n. 2. F o r
t h at r e a s o n, t h e f a ct t h at s o m e att e m pt e d a r r e st s w e r e
u nl a wf ul at c o m m o n l a w di d n ot m att e r b e c a u s e u nl a wf ul d o e s n ot e q u at e t o u n c o n stit uti o n al. I d. B y c o nt r a st,
t h e C o u rt e m b r a c e d t h e f ull s c o p e of t h e c o m m o n -l a w
a r r e st, i n cl u di n g t h e n oti o n t h at “t h e m e r e t o u c hi n g of a
p e r s o n w o ul d s uffi c e.” I d.
T h e u p s h ot i s t h at t hi s C o u rt i n H o d a ri D. cl e a rl y d eli n e at e d b et w e e n s ei z u r e b y p h y si c al f o r c e, o n t h e o n e
h a n d, a n d s ei z u r e b y s h o w of a ut h o rit y, o n t h e ot h e r.
W hil e t h e m e r e a p pli c ati o n of p h y si c al f o r c e t o a p p r eh e n d a s u s p e ct i s s uffi ci e nt t o eff e ct a s ei z u r e, a s h o w of
a ut h o rit y r e q ui r e s m o r e t o r e a c h t h e l e v el of a s ei z u r e.

8
I I.

O t h e r F o u r t h A m e n d m e n t c o m m o n -l a w a nal o g u e s u tili z e a si mil a r a n al y ti c al f r a m ew o r k t o t h e o n e e m pl o y e d b y t hi s C o u r t i n
H o d a ri D.
A.

Li k e a c o m m o n -l a w a r r e s t, t h e c o m m o nl a w f al s e i m p ri s o n m e n t t o r t di s ti ng ui s h e s b e t w e e n r e s t r ai n t b y f o r c e a n d
r e s t r ai n t b y f e a r, wi t h t h e l a t t e r r e q ui ri n g a d di ti o n al i n q ui ri e s.

T h e c o m m o n -l a w t o rt of f al s e i m p ri s o n m e nt c e nt e r s
o n w h et h e r a p e r s o n’ s m o v e m e nt h a s b e e n r e st r ai n e d
f o r a n y l e n gt h of ti m e, r ai si n g q u e sti o n s li k e t h o s e at i ss u e i n H o d a ri D. I n li g ht of t h e s e si mil a riti e s, it s h o ul d
c o m e a s n o s u r p ri s e t h at c o u rt s at c o m m o n l a w h a v e d ev el o p e d a c o m p a r a bl e f al s e -i m p ri s o n m e nt f r a m e w o r k
t h at t r e at s r e st r ai nt b y f o r c e a s diff e r e nt i n ki n d f r o m
r e st r ai nt b y f e a r, w h e r e t h e t e st f o r r e st r ai nt b y f e a r i s
m o r e st ri n g e nt. T h e s e i n si g ht s r ei nf o r c e t h e a p p r o p riat e m et h o d ol o gi c al st r u ct u r e f o r a n al y zi n g a “ s ei z u r e,”
p a rti c ul a rl y w h e n t h e C o u rt h a s al r e a d y r e c o g ni z e d
f al s e i m p ri s o n m e nt a s a p r o p e r c o m m o n-l a w a n al o g u e
f o r F o u rt h A m e n d m e nt f al se a r r e st cl ai m s ( al b eit i n t h e
st at ut e -of -li mit ati o n s c o nt e xt). S e e W all a c e v. K at o , 5 4 9
U. S. 3 8 4, 3 8 8 – 8 9 ( 2 0 0 7).
I n g e n e r al, t h e t o rt of f al s e i m p ri s o n m e nt c o n si st s of
a n y “ u nl a wf ul r e st r ai nt” of a n i n di vi d u al’ s “ p e r s o n al li be rt y o r f r e e d o m of m o v e m e nt” a g ai n st h e r will. 3 5 C. J. S.
F al s e I m p ri s o n m e nt § 1 ( 2 0 1 9). T h e t o rt p r ot e ct s t h e s ac r e d “ ri g ht of e v e r y i n di vi d u al t o t h e p o s s e s si o n a n d c o nt r ol of hi s o w n p e r s o n, f r e e f r o m all r e st r ai nt o r i nt e rf e re n c e of ot h e r s, u nl e s s b y cl e a r a n d u n q u e sti o n a bl e a ut ho rit y of l a w.” J o h n s o n v. B a r n e s & N o bl e B o o k s ell e r s,

9
I n c., 4 3 7 F. 3 d 1 1 1 2, 1 1 1 6 ( 1 1t h Ci r. 2 0 0 6) ( q u oti n g
T e r r y , 3 9 2 U. S. at 9).
Alt h o u g h p r e ci s e d efi niti o n s of t h e t o rt diff e r b et w e e n j u ri s di cti o n s, t h e r e a r e t w o “ e s s e nti al el e m e nt s.”
3 5 C. J. S. F al s e I m p ri s o n m e nt § 5 ( 2 0 1 9). Fi r st, t h e
pl ai ntiff m u st d e m o n st r at e s o m e “ r e st r ai nt” of h e r p e rs o n al li b e rt y o r f r e e d o m of m o v e m e nt f o r a n y l e n gt h of
ti m e. S e e Si n cl ai r R efi ni n g C o. v. M e e k , 1 0 S. E. 2 d 7 6,
7 9 ( G a. A p p. 1 9 4 0). S e c o n d, t h e r e st r ai nt m u st b e “ u nl awf ul.” S e e, e. g. , Al v a r e z v. M o nt g o m e r y C nt y. , 1 4 7 F. 3 d
3 5 4, 3 5 9 ( 4t h Ci r. 1 9 9 8) (“[ T] h e n e c e s s a r y el e m e nt s of a
c a s e f o r f al s e i m p ri s o n m e nt a r e a d e p ri v ati o n of t h e li be rt y of a n ot h e r wit h o ut hi s c o n s e nt a n d wit h o ut l e g al
j u stifi c ati o n.” ( q u oti n g M o nt g o m e r y W a r d v. Wil s o n , 6 6 4
A. 2 d 9 1 6, 9 2 6 ( M d. 1 9 9 5)); Di a z v. L o c k h e e d El e c s. , 6 1 8
P. 2 d 3 7 2, 3 7 4 ( N. M. Ct. A p p. 1 9 8 0) (“ F al s e i m p ri s o nm e nt i n v ol v e s t h e u nl a wf ul i nt e rf e r e n c e wit h t h e p e rs o n al li b e rt y o r f r e e d o m of l o c o m oti o n of a n ot h e r.”).
T h e r e a r e o b vi o u s c o n c e pt u al si mil a riti e s b et w e e n
t h e “ r e st r ai nt” t h at a pl ai ntiff m u st d e m o n st r at e t o p r ev ail o n t h e c o m m o n -l a w t o rt of f al s e i m p ri s o n m e nt, a n d
t h e “ r e st r ai nt” t h at a pl ai ntiff m u st d e m o n st r at e t o p r ev ail o n a F o u rt h A m e n d m e nt s ei z u r e cl ai m. I n d e e d, t h e
li ng ui sti c f o r m ul ati o n s of t h e r el e v a nt F o u rt h A m e n dm e nt a n d f al s e -i m p ri s o n m e nt t e st s b ot h f o c u s o n
w h et h e r t h e r e h a s b e e n a r e st r ai nt o n t h e p e r s o n’ s p e rs o n al li b e rt y o r f r e e d o m of m o v e m e nt. C o m p a r e H o d a ri
D. , 4 9 9 U. S. at 6 2 5 (“[ A] s ei z u r e o c c u r s ‘ w h e n t h e offi c e r,
b y m e a n s of p h y si c al f o r c e o r s h o w of a ut h o rit y, h a s i n
s o m e w a y r e st r ai n e d t h e li b e rt y of a citi z e n.’” ( q u oti n g
T e r r y , 3 9 2 U. S. at 1 9 n. 1 6) ( e m p h a si s o mitt e d)), a n d
U nit e d St at e s v. J a c o b s e n , 4 6 6 U. S. 1 0 9, 1 1 3 n. 5 ( 1 9 8 4)
( n oti n g t h at a F o u rt h A m en d m e nt s ei z u r e r e s ult s f r o m

10
“ m e a ni n gf ul i nt e rf e r e n c e, h o w e v e r b ri ef, wit h a n i n divi d u al’ s f r e e d o m of m o v e m e nt”), wit h L u k a s v. J. C. P e nn e y C o. , 3 7 8 P. 2 d 7 1 7, 7 2 0 ( O r. 1 9 6 3) ( h ol di n g t h at a n
u nl a wf ul r e st r ai nt “ u p o n a n ot h e r’ s f r e e d o m of m o v em e nt” c o n stit ut e s a f al s e i m p ri s o n m e nt), a n d Di a z , 6 1 8
P. 2 d at 3 7 4 (“ F al s e i m p ri s o n m e nt i n v ol v e s t h e u nl a wf ul
i nt e rf e r e n c e wit h t h e p e r s o n al li b e rt y o r f r e e d o m of l oc o m oti o n of a n ot h e r.”). 5
Li k e c o m m o n -l a w a r r e st di s c u s s e d i n H o d a ri D. , t h e
c o m m o n -l a w t o rt of f al s e i m pri s o n m e nt al s o d r a w s a
li n e b et w e e n r e st r ai nt b y f o r c e a n d r e st r ai nt b y f e a r.
S p e cifi c all y, a pl ai ntiff a s s e rti n g a c o m m o n -l a w cl ai m of
f al s e i m p ri s o n m e nt m u st d e m o n st r at e t h at t h e “ r est r ai nt” of h e r p e r s o n al li b e rt y o r f r e e d o m of m o v e m e nt
r e s ult e d eit h e r f r o m f o r c e o r f r o m f e a r. 3 5 C. J. S. F al s e
I m p ri s o n m e nt § 1 4 ( 2 0 1 9). A s t h e S u p r e m e C o u rt of
N o rt h C a r oli n a o b s e r v e d i n H al e s v. M c C r o r y -M c L ell a n
C o r p. , 1 3 3 S. E. 2 d 2 2 5 ( N. C. 1 9 6 3), a diff e r e nt st a n d a r d
a p pli e s i n c a s e s w h e r e t h e all e g e d r e st r ai nt w a s a c c o mpli s h e d t h r o u g h f e a r, a s o p p o s e d t o f o r c e:
T h e e s s e nti al t hi n g i s t h e r e st r ai nt of t h e p e r s o n.
T hi s m a y b e c a u s e d b y t h r e at s, a s w ell a s b y a ct u al
f o r c e, a n d t h e t h r e at s m a y b e b y c o n d u ct o r b y w o r d s.

5 T o b e s u r e, F o u rt h A m e n d m e nt s ei z u r e s a n d f al s e i m p ri s o nm e nt s m a y n ot b e c o m pl et el y o v e rl a p pi n g. A s c o m m e nt at o r s
h a v e c a uti o n e d, “r e st r ai n t mi g ht n ot b e e x a ctl y t h e s a m e u n d e r
. . . F o u rt h A m e n d m e nt d o ct ri n e a n d . . . p ri v at e l a w.” Willi a m
B a u d e & J a m e s Y. St e r n, T h e P o siti v e L a w M o d el of t h e F o u rt h
A m e n d m e nt , 1 2 9 H a r v. L. R e v. 1 8 2 1, 1 8 8 6 ( 2 0 1 6). F o r e x a m pl e,
p h y si c al c o nt a c t m a y b e e n o u g h u n d e r t h e F o u rt h A m e n d m e nt,
b ut n ot e n o u g h u n d e r t o rt l a w. I d. W h at e v e r t h e diff e r e n c e s
b et w e e n t h e n e c e s s a r y el e m e nt s f o r t h e s e cl ai m s, t h e a n al yti c al
m o d el s a r e a n al o g o u s.

11
If t h e w o r d s o r c o n d u ct a r e s u c h a s t o i n d u c e a r e as o n a bl e a p p r e h e n si o n of f o r c e, a n d t h e m e a n s of c oe r ci o n a r e at h a n d, a p e r s o n m a y b e a s eff e ct u all y
r e st r ai n e d a n d d e p ri v e d of li b e rt y a s b y p ri s o n b a r s.
I d. at 2 2 7. T h e c o u rt’ s st at e m e nt s di vi d e r e st r ai nt of a
p e r s o n “ b y a ct u al f o r c e,” o n t h e o n e h a n d, f r o m r e st r ai nt
of a p e r s o n b y “t h r e at s,” o n t h e ot h e r. I d.; s e e al s o, e. g. ,
T r a h a n v. B ell s o ut h T el e c o m m., I n c. , 8 8 1 F. S u p p. 1 0 8 0,
1 0 8 4 ( W. D. L a.) ( st ati n g t h at “ e vi d e n c e of p h y si c al r est r ai nt o r f e a r of p h y si c al r e st r ai nt” i s r e q ui r e d f o r a
cl ai m of f al s e i m p ri s o n m e nt), aff’ d , 7 1 F. 3 d 8 7 6 ( 5t h Ci r.
1 9 9 5); Willi a m s v. F o o d Li o n, I n c. , 4 4 6 S. E. 2 d 2 2 1, 2 2 3
( G a. Ct. A p p. 1 9 9 4) (“[ D] et e nti o n m u st h a v e o c c u r r e d
w h et h e r c a u s e d b y f o r c e o r f e a r.”).
B y d r a wi n g t hi s di sti n cti o n, c o u rt s a c k n o wl e d g e t h at
r e st r ai nt b y f o r c e o p e r at e s o n a diff e r e nt pl a yi n g fi el d
t h a n r e st r ai nt b y f e a r. R e st r ai nt b y “f o r c e” m a y i n cl u d e,
f o r e x a m pl e, t h e e r e cti o n of a p h y si c al b a r ri e r bl o c ki n g
t h e pl ai ntiff’ s f r e e d o m of m o v e m e nt, s e e F e r mi n o v.
F e d c o, I n c ., 8 7 2 P. 2 d 5 5 9, 5 6 7 ( C al. 1 9 9 4), o r t h e e m pl o ym e nt of “ p e r s o n al vi ol e n c e” a g ai n st t h e pl ai ntiff, J o n e s
e x r el. R o bi n s o n v. Wi n n -Di xi e G r e e n vill e, I n c. , 4 5 6
S. E. 2 d 4 2 9, 4 3 2 ( S. C. Ct. A p p. 1 9 9 5). At l e a st i n s o m e
ci r c u m st a n c e s, t h e m e r e a p pli c ati o n of f o r c e h a s b e e n
h el d s uffi ci e nt t o s h o w a “ r e st r ai nt” of t h e pl ai ntiff’ s p e rs o n al li b e rt y. S e e P at ri c k v. E s s o St a n d a r d Oil C o. , 1 5 6
F. S u p p. 3 3 6, 3 4 0 ( D. N. J. 1 9 5 7) ( n oti n g t h at t h e “ u s e of
p h y si c al f o r c e” i s s uffi ci e nt, b ut n ot “ n e c e s s a r y,” t o p r o v e
f al s e a r r e st); D ol g e n c o r p, I n c. v. P o u n d e r s , 9 1 2 S o. 2 d
5 2 3, 5 2 7 ( Al a. Ci v. A p p. 2 0 0 5) ( n oti n g t h at “[ a] n y e x e rci s e of f o r c e” d e p ri vi n g a pl ai ntiff of hi s o r h e r p e r s o n al
li b e rt y i s s uffi ci e nt t o s h o w u nl a wf ul r e st r ai nt). T h e s e
r uli n g s f all i n li n e wit h t hi s C o u rt’ s st at e m e nt i n H o d a ri

12
D. t h at a n y a p pli c ati o n of p h y si c al f o r c e t o s u b d u e a s u sp e ct eff e ct s a “ s ei z u r e.” S e e 4 9 9 U. S. at 6 2 4 – 2 5.
W h e n a f al s e i m p ri s o n m e nt cl ai m i s i n st e a d b a s e d o n
r e st r ai nt b y f e a r, c o u rt s r e q ui r e t h e pl ai ntiff t o p r o v e
m o r e — n a m el y, t h at t h e pl ai ntiff s u b mitt e d t o i m p ris o nm e nt b e c a u s e of a r e a s o n a bl e f e a r t h at f aili n g t o d o s o
w o ul d l e a d t o f o r c e. G e n e r all y, a pl ai ntiff all e gi n g r est r ai nt t h r o u g h f e a r m u st m a k e a n a d diti o n al s h o wi n g
t h at t h e d ef e n d a nt “i n d u c e[ d] a r e a s o n a bl e a p p r e h e nsi o n ” i n t h e pl ai ntiff “t h at f o r c e [ wo ul d] b e u s e d if t h e
pl ai ntiff [ di d] n ot s u b mit.” 3 5 C. J. S. F al s e I m p ri s o nm e nt § 1 7 ( 2 0 1 9) ( e m p h a si s a d d e d); s e e, e. g. , M a r c u s v.
Li e b m a n , 3 7 5 N. E. 2 d 4 8 6, 4 8 8 (Ill. A p p. Ct. 1 9 7 8).
C a s e s t y pi c all y e x a mi n e w h et h e r t h e d ef e n d a nt’ s w o r d s,
a ct s, a n d g e st u r e s p ut t h e pl ai ntiff “i n f e a r of p e r s o n al
diffi c ult y o r p e r s o n al i nj u ri e s” if s h e d o e s n ot c o m pl y
wit h t h e d ef e n d a nt’ s c o m m a n d s. T o d d v. B y r d , 6 4 0
S. E. 2 d 6 5 2, 6 5 9 ( G a. Ct. A p p. 2 0 0 6), o v e r r ul e d o n ot h e r
g r o u n d s b y F e r r ell v. Mi k ul a , 6 7 2 S. E. 2 d 7 ( G a. Ct. A p p.
2 0 0 8); s e e al s o 3 5 C. J. S. F al s e I m p ri s o n m e nt § 1 7 ( 2 0 1 9).
T h e s e r e q ui r e m e nt s f o r r e st r ai nt b y f e a r a r e c o nsi st e nt wit h t hi s C o u rt’ s c o n c e pt u ali z ati o n of a F o u rt h
A m e n d m e nt s ei z u r e t h r o u g h a s h o w of a ut h o rit y. A s i n
t h e f al s e-im p ri s o n m e nt c o nt e xt, t hi s s p e ci e s of s ei z u r e
i n cl u d e s a n a d diti o n al o bj e cti v e el e m e nt r e g a r di n g a
s u bj e ct’ s s u b mi s si o n t o t h e offi c e r’ s s h o w of a ut h o rit y —
m o r e p a rti c ul a rl y, w h et h e r a r e a s o n a bl e p e r s o n “ w o ul d
h a v e b eli e v e d t h at h e w a s n ot f r e e t o l e a v e.” H o d a ri D. ,
4 9 9 U. S. at 6 2 8 ( q u oti n g M e n d e n h all , 4 4 6 U. S. at 5 5 4).
T hi s o bj e cti v e i n q ui r y, t o o, l o o k s t o f a ct o r s n e a rl y i d e nti c al t o t h o s e e x a mi n e d i n f al s e-i m p ri s o n m e nt c a s e s, i ncl u di n g “t h e t h r e at e ni n g p r e s e n c e of s e v e r al offi c e r s,”
“t h e di s pl a y of a w e a po n,” “ s o m e p h y si c al t o u c hi n g of t h e

13
p e r s o n of t h e citi z e n,” a n d “t h e u s e of l a n g u a g e o r t o n e
of v oi c e.” M e n d e n h all , 4 4 6 U. S. at 5 5 4.6
I n s h o rt, t h e r e a r e n u m e r o u s c o n n e cti o n s b et w e e n
t h e w a y t h at c o u rt s t r e at a r r e st a n d f al s e i m p ri s o n m e nt
u n d e r t h e c o m m o n l a w. T h e cl o s e r e s e m bl a n c e b et w e e n
t h e a n al yti c al f r a m e w o r k s f o r t h e s e t w o t o rt s f u rt h e r
u n d e r s c o r e s t h e utilit y i n r e c o g ni zi n g t h e di sti n cti o n b et w e e n c a s e s i n v ol vi n g p h y si c al r e st r ai nt s a n d t h o s e i nv ol vi n g p s y c h ol o gi c al r e st r ai nt s.
B.

Si mil a r t o a “ s e i z u r e ” u n d e r t h e F o u r t h
A m e n d m e n t, a “ s e a r c h ”
u n der t he
F o u r t h A m e n d m e n t c a n r e s ul t f r o m a
c o m m o n -l a w t r e s p a s s o r f r o m a n i n v asi o n of t h e ri g h t t o p ri v a c y.

A n ot h e r u s ef ul c o m p a r at o r f o r t h e a p p r o p ri at e m o d e
of a n al y si s f o r e v al u ati n g F o u rt h A m e n d m e nt “ s ei z u r e”
cl ai m s c o m e s f r o m t h e n ei g h b o ri n g F o u rt h A m e n d m e nt
“ s e a r c h” c o nt e xt. I n f a ct, t h e e v ol uti o n of t hi s C o u rt’ s
vi e w s o n h o w t o a n al y z e s e a r c h e s u n d e r t h e F o u rt h
A m e n d m e nt cl o s el y mi r r o r s t h e d e v el o p m e nt of t h e

6 B a s e d o n t h e f a ct o r s o utli n e d a b o v e, t h e r e i s a s u p p o rt a bl e a rg u m e nt t h at t h e f a ct s of M s. T o r r e s ’s c a s e ri s e t o t h e l e v el of r est r ai nt b y f e a r wit h o ut e v e n r e s o rti n g t o r e st r ai nt b y f o r c e. U nd e r t h e t ot alit y of t h e ci r c u m st a n c e s, m ulti pl e offi c e r s w e a ri n g
t a cti c al v e st s wit h p oli c e m a r ki n g s a p p r o a c h e d M s. T o r r e s ’s v ehi cl e, o r d e r e d M s. T o r r e s t o s h o w h e r h a n d s, b r a n di s h e d a n d di sc h a r g e d t h ei r w e a p o n s, a n d st r u c k M s. T o r r e s wit h t w o b ull et s. R e g a r dl e s s of h o w M s. T o r r e s a ct u all y p e r c ei v e d a n d r es p o n d e d t o e a c h of t h e s e a ct s, it i s c o n c ei v a bl e t h at a r e a s o n a bl e
p e r s o n i n h e r p o siti o n w o ul d h a v e f e a r e d p e r s o n al i nj u r y o r diffic ult y if s h e di d n ot c o m pl y. S e e g e n e r all y 3 5 C. J. S. F al s e I m p ri so n m e nt § 1 7 ( 2 0 1 9).

14
fr a m e w or k t o
A m e n d m e nt.

a n al y z e s ei z u r e s

u n d er t h e

F o urt h

I n t h e s e mi n al c a s e of K at z v. U nit e d St at e s , 3 8 9 U. S.
3 4 7, 3 5 3 ( 1 9 6 7), t hi s C o u rt r e p u di at e d e x cl u si v e r eli a n c e
o n c o m m o n -l a w t r e s p a s s p ri n ci pl e s t o d efi n e t h e s c o p e
of a F o u rt h A m e n d m e nt s e a r c h. I n t h e e r a of el e ct r o ni c
s u r v eill a n c e, t h at a p p r o a c h t o o k t o o n a r r o w a vi e w of
t h e s c o p e of F o u rt h A m e n d m e nt p r ot e cti o n s aff o r d e d.
S e e i d. (“[ T] h e r e a c h of t h[ e] [ F o u rt h] A m e n d m e nt c a nn ot t u r n u p o n t h e p r e s e n c e o r a b s e n c e of a p h y si c al i nt r u si o n i nt o a n y gi v e n e n cl o s u r e.”). I n hi s c o n c u r r e n c e,
J u sti c e H a rl a n c o n st r u ct e d t h e n o w -c o nt r olli n g t w o p a rt
t e st t o d et e r mi n e w h e n a F o u rt h A m e n d m e nt s e a r c h
h a s o c c u r r e d: “fi r st t h at a p e r s o n h a v e e x hi bit e d a n a ct u al ( s u bj e cti v e) e x p e ct ati o n of p ri v a c y a n d, s e c o n d, t h at
t h e e x p e ct ati o n b e o n e t h at s o ci et y i s p r e p a r e d t o r e c o gni z e a s ‘ r e a s o n a bl e.’” I d. at 3 6 1 ( H a rl a n, J., c o n c u r ri n g).
H o w e v e r, i n c a s e s i n v ol vi n g i n c r e a si n gl y c o m pli c at e d
t e c h n ol o gi e s, t h e s e p ri n ci pl e s c a n oft e n b e c h all e n gi n g
t o a p pl y. S e e, e. g. , C a r p e nt e r v. U nit e d St at e s , 1 3 8 S. Ct.
2 2 0 6, 2 2 1 6 – 2 0 ( 2 0 1 8) ( c ell -sit e l o c ati o n i nf o r m ati o n);
U nit e d St at e s v. J o n e s , 5 6 5 U. S. 4 0 0, 4 0 5– 1 1 ( 2 0 1 2)
( G P S t r a c ki n g d e vi c e); K yll o v. U nit e d St at e s , 5 3 3 U. S.
2 7, 3 3 – 4 0 ( 2 0 0 1) (t h e r m al -i m a gi n g d e vi c e); S mit h v.
M a r yl a n d , 4 4 2 U. S. 7 3 5, 7 4 1– 4 5 ( 1 9 7 9) ( p e n r e gi st e r).
T h u s, o n m a n y o c c a si o n s, t h e C o u rt h a s h a r k e n e d b a c k
t o t h e w ell-d eli n e at e d c o m m o n -l a w r ul e s of t r e s p a s s t o
r e s ol v e t h e s e c o m pl e x c a s e s b a s e d o n w h et h e r a p h y si c al
i nt r u si o n o c c u r r e d. S e e, e. g. , Fl o ri d a v. J a r di n e s , 5 6 9
U. S. 1, 7 – 1 0 ( 2 0 1 3); J o n e s , 56 5 U. S. at 4 0 4 – 1 1; s e e al s o
C a r p e nt e r , 1 3 8 S. Ct. at 2 2 6 7– 6 8 ( G o r s u c h, J., di s s e nti n g).

15
I n s o d oi n g, t h e C o u rt h a s d r a w n a di sti n cti o n b et w e e n s e a r c h b y t r e s p a s s, i. e., p h y si c al i nt r u si o n, a n d
s e a r c h b y i n v a si o n of p ri v a c y. F o r t h e f o r m e r c at e g o r y,
a s e a r c h li e s w h e n t h e g o v e r n m e nt p h y si c all y i nt r u d e s
o n a c o n stit uti o n all y p r ot e ct e d a r e a, a s i nf o r m e d b y
c o m m o n -l a w t r e s p a s s p ri n ci pl e s. J a r di n e s , 5 6 9 U. S. at
1 1. F o r t h e l att e r c at e g o r y, w h e r e p h y si c al i nt r u si o n i s
l a c ki n g, c o u rt s m u st a s k a d diti o n al q u e stio n s t o e n s u r e
t h at a s uffi ci e nt i n v a si o n h a s o c c u r r e d. I n p a rti c ul a r,
c o u rt s l o o k t o t h e o bj e cti v e a n d s u bj e cti v e c o m p o n e nt s
of t h e r e a s o n a bl e -e x p e ct ati o n -of -p ri v a c y t e st d e ri v e d
f r o m K at z . S e e J o n e s , 5 6 5 U. S. at 4 0 5– 0 6. I n t hi s w a y,
t h e K at z t e st “ s u p pl e m e nt s, r at h e r t h a n di s pl a c e s, ‘t h e
t r a diti o n al p r o p e rt y-b a s e d u n d e r st a n di n g of t h e F o u rt h
A m e n d m e nt.’” B y r d v. U nit e d St at e s , 1 3 8 S. Ct. 1 5 1 8,
1 5 2 6 ( 2 0 1 8) ( q u oti n g J a r di n e s , 5 6 9 U. S. at 1 1); s e e al s o
J o n e s , 5 6 5 U. S. at 4 0 9 (“[ T] h e K at z r e a s o n a bl e -e x p e ct ati o n-of -p ri v a c y t e st h a s b e e n a d d e d t o , n ot s u b stit ut e d
f o r, t h e c o m m o n-l a w t r e s p a s s o r y t e st.”).
T h e e v ol uti o n of t h e a n al yti c al f r a m e w o r k f o r F o u rt h
A m e n d m e nt s ei z u r e s h a s f oll o w e d a si mil a r p at h. I n r es p o n s e t o t h e r e al -w o rl d c o m pl e xiti e s att e n d a nt t o c o nt a ct b et w e e n p oli c e offi c e r s a n d citi z e n s, t h e C o u rt
c r aft e d a st a n d a r d f o r n o n -p h y si c al i nt e r a cti o n s f o c u si n g o n w h et h e r “ a r e a s o n a bl e p e r s o n w o ul d h a v e b eli e v e d t h at h e w a s n ot f r e e t o l e a v e.” M e n d e n h all , 4 4 6
U. S. at 5 5 3 – 5 4. 7 B ut a s t h e C o u rt l at e r m a d e cl e a r i n
H o d a ri D. , t hi s i nt ri c at e a n al y si s i s n ot n e c e s s a r y w h e n
a n offi c e r a p pli e s p h y si c al f o r c e i n a n att e m pt t o a p p r eh e n d a s u s p e ct. T h e c o m m o n l a w o n a r r e st l e a v e s n o
7 T h e C o u rt i n M e n d e n h all
d r e w s u p p o rt f o r it s n ot -f r e e-t ol e a v e t e st f r o m T e r r y , 3 9 2 U. S. 1, w hi c h w a s t h e fi r st d e ci si o n t o
a d o pt J u sti c e H a rl a n ’s e x p e ct ati o n -of -p ri v a c y t e st.

16
d o u bt t h at, i n t h at s c e n a ri o, a s ei z u r e h a s o c c u r r e d. S e e
H o d a ri D. , 4 9 9 U. S. at 6 2 4– 2 6. O nl y i n t h e a b s e n c e of
s u c h p h y si c al f o r c e d o c o u rt s n e e d t o s c r uti ni z e H o d a ri
D. ’ s o bj e cti v e a n d s u bj e cti v e c o m p o n e nt s t h at di ct at e
w h et h e r a n offi c e r’ s s h o w of a ut h o rit y a m o u nt e d t o a n
e x e rti o n of p h y si c al c o nt r ol o v e r t h e s u bj e ct.
T hi s m o d e of a n al y si s h a s t h e a d diti o n al b e n efit of
si m plif yi n g st r ai g htf o r w a r d c a s e s. S e e J a r di n e s , 5 6 9
U. S. at 1 1 (“ O n e vi rt u e of t h e F o u rt h A m e n d m e nt’ s
p r o p e rt y -ri g ht s b a s eli n e i s t h at it k e e p s e a s y c a s e s
e a s y.”). It i s i n di s p ut a bl e t h at a n offi c e r c o n d u ct s a
s e a r c h w h e n s h e p h y si c all y i nt r u d e s o n a p ri v at e citiz e n’ s p r o p e rt y t o g at h e r e vi d e n c e. It s e e m s e q u all y i ndi s p ut a bl e t h at a n offi c e r c o m mit s a s ei z u r e w h e n s h e
a p pli e s p h y si c al f o r c e ( p a rti c ul a rl y d e a dl y f o r c e i n M s.
T o r r e s’ s c a s e) t o a p p r e h e n d a s u s p e c t. B ot h a cti o n s i nf ri n g e o n t h e p e o pl e’ s ri g ht “t o b e s e c u r e i n t h ei r p e r s o n s,
h o u s e s, p a p e r s, a n d eff e ct s.” U. S. C o n st. a m e n d. I V.
J u st a s a c o m m o n -l a w t r e s p a s s q u alifi e s a s a F o u rt h
A m e n d m e nt s e a r c h, s o t o o s h o ul d a c o m m o n -l a w a r r e st
q u alif y a s a F o u r t h A m e n d m e nt s ei z u r e, a s t hi s C o u rt
h a s al r e a d y r e c o g ni z e d i n H o d a ri D.
I I I. I s s u e s c o n c e r ni n g p oli c e offi c e r s’ u s e of
f o r c e i n a n a t t e m p t t o s u b d u e s u s p e c t s r ec u r f r e q u e n tl y, a n d t h e T e n t h Ci r c ui t’ s d eci si o n will i n s ul a t e s u c h c o n d u c t f r o m c o ns ti t u ti o n al s c r u ti n y.
C o nt r a r y t o H o d a ri D . a n d t h e F o u rt h A m e n d m e nt
p ri n ci pl e s di s c u s s e d a b o v e, t h e T e nt h Ci r c uit h el d i n
t hi s c a s e t h at n o s ei z u r e o c c u r r e d, s ol el y b e c a u s e t h e offi c e r s’ u s e of d e a dl y f o r c e a g ai n st M s. T o r r e s di d n ot at
fi r st s u c c e e d i n s u b d ui n g h e r. B ut w h et h e r M s. T o r r e s
s u b mitt e d s h o ul d n ot h a v e b e e n di s p o siti v e of w h et h e r

17
a t e m p o r a r y s ei z u r e o c c u r r e d. T h e offi c e r s’ u s e of f o r c e
wit h t h e i nt e nti o n of d et ai ni n g M s. T o r r e s s h o ul d h a v e
b e e n s uffi ci e nt t o c o n stit ut e a s ei z u r e wit hi n t h e m e a ni n g of th e F o u rt h A m e n d m e nt. T h e T e nt h Ci r c uit’ s d eci si o n i s n ot o nl y w r o n g; it h a s t h e p e r v e r s e eff e ct of i mm u ni zi n g p oli c e offi c e r s’ u s e of f o r c e — e v e n d e a dl y
f o r c e— f r o m all c o n stit uti o n al s c r uti n y w h e n e v e r t h at
u s e of f o r c e di d n ot at fi r st s u b d u e t h e s u s p e ct. T h e
F o u rt h A m e n d m e nt’ s r e a c h s h o ul d n ot t u r n o n h a p p e nst a n c e. T hi s C o u rt’ s r e vi e w i s w a r r a nt e d.
A. T h e i s s u e p r e s e nt e d i n M s. T o r r e s’ s p etiti o n i s a n
i s s u e of n ati o n al si g nifi c a n c e. P oli c e offi c e r s oft e n u s e
f o r c e i n t h e c o u r s e of a p p r e h e n di n g, o r att em pti n g t o a pp r e h e n d, a s u s p e ct. W h e n t h e y d o s o, t h e aff e ct e d i n divi d u al s oft e n m a y c o nt e n d t h at t h e offi c e r s u s e d e x c e ssi v e f o r c e. S e e, e. g. , R a c h el A. H a r m o n, W h e n I s P oli c e
Vi ol e n c e J u stifi e d ? , 1 0 2 N w. U. L. R e v. 1 1 1 9, 1 1 2 5
( 2 0 0 8) (“ S u bj e ct s of p oli c e u s e s of f o r c e oft e n r e s p o n d
wit h all e g ati o n s of l a w e nf o r c e m e nt b r ut alit y.” (f o ot n ot e
o mitt e d)); C y nt hi a L e e, R ef o r mi n g t h e L a w o n P oli c e
U s e of D e a dl y F o r c e: D e -E s c al ati o n, P r e s ei z u r e C o n d u ct,
a n d I m p e rf e ct S elf -D ef e n s e , 2 0 1 8 U. Ill. L. R e v. 6 2 9, 6 3 1.
C l e a r j u di ci al g ui d a n c e c o n c e r ni n g t h e st a n d a r d s g o ve r ni n g t h e u s e of f o r c e, e s p e ci all y d e a dl y f o r c e, i s c riti c al
f o r b ot h p oli c e offi c e r s a n d t h e citi z e n s wit h w h o m t h e y
i nt e r a ct.
Sit u ati o n s i n w hi c h s u s p e ct s h a v e m a n a g e d t o e v a d e
l a w e nf o r c e m e nt u s e s of fo r c e a ri s e f ai rl y f r e q u e ntl y.
T h e p a st d e c a d e h a s s e e n n u m e r o u s i n st a n c e s i n w hi c h
offi c e r s h a v e a p pli e d p h y si c al f o r c e b ut f ail e d t o s u b d u e
t h e s u s p e ct— a s e vi d e n c e d b y t h e a b u n d a n c e of F o u rt h
A m e n d m e nt c a s e s, b ot h ci vil a n d c ri mi n al, p r e s e nti n g

18
s u c h ci r c u m st a n c e s. 8 A n d t h e s e c a s e s a ri s e i n a v a ri et y
of c o nt e xt s i n w hi c h diff e r e nt t y p e s of f o r c e h a v e b e e n
u s e d. S u s p e ct s m a y e s c a p e aft e r b ei n g s h ot ( a s i n M s.
T o r r e s’ s c a s e), e. g. , D u k e s , 2 0 0 7 W L 9 7 0 1 8 1 3, at * 1; 9
t h e y m a y e v a d e p oli c e aft e r b ei n g r a m m e d b y a v e hi cl e,
S e e, e. g. , C a r rill o -O rti z v. N. M. St at e P oli c e , No. 1 8 -C V -0 0 3 3 4,
2 0 1 9 W L 4 3 9 3 9 8 9, at * 5 ( D. N. M. S e pt. 1 3, 2 0 1 9); B r o w n v. Cit y
of L a s C r u c e s P oli c e D e p ’t, N o. 1 7-C V -0 0 9 4 4, 2 0 1 9 W L 3 9 5 6 1 6 7,
at * 9 ( D. N. M. A u g. 2 1), r e p o rt a n d r e c o m m e n d ati o n a d o pt e d i n
p a rt, r ej e ct e d i n p a rt , 2 0 1 9 W L 4 2 9 6 8 5 8 ( D. N. M. S e p t. 1 1, 2 0 1 9);
L u c e r o Y R ui z D e G uti e r r e z v. Al b u q u e r q u e P u b. S c h. , N o. 1 8-C V 0 0 0 7 7, 2 0 1 9 W L 2 0 3 1 7 1, at * 5 ( D. N. M. J a n. 1 5, 2 0 1 9); U nit e d
St at e s v. O r a n g e , N o. 1 7-C R -0 0 0 0 5, 2 0 1 8 W L 4 6 9 1 6 3 4, at * 3 ( S. D.
G a. A u g. 2 1), r e p o rt a n d r e c o m m e n d ati o n a d o pt e d , 2 0 1 8 W L
4 6 8 8 7 2 6 ( S. D. G a. S e pt. 2 8, 2 0 1 8); F a r r ell v. D et a vi s , N o. 1 5-C V 0 1 1 1 3, 2 0 1 6 W L 1 0 8 5 9 7 8 9, at * 3 ( D. N. M. A u g. 3 0, 2 0 1 6), r e v ’d
s u b n o m. F a r r ell v. M o nt o y a , 8 7 8 F. 3 d 9 3 3 ( 1 0t h Ci r. 2 0 1 7); E st at e of Al v a r a d o v. T a c k ett, N o. 1 3-C V -0 1 2 0 2, 2 0 1 5 W L 1 3 2 3 9 1 8 4,
at * 6 ( S. D. C al. A p r. 2 7, 2 0 1 5), r e v ’d a n d r e m a n d e d s u b n o m. E st at e of Al v a r a d o v. S h a v att, 6 7 3 F. A p p’x 7 7 7 ( 9t h Ci r. 2 0 1 7);
K r a h n v. M ei x ell , N o. 1 0-C V -0 0 1 4 0, 2 0 1 4 W L 5 8 4 0 7 5 6, at * 4 n. 2
( D. D el. N o v. 1 0, 2 0 1 4); U nit e d St at e s v. Si n gl et a r y , 3 7 F. S u p p.
3 d at 6 0 1, 6 0 9 ( W. D. N. Y. 2 0 1 4); U nit e d St at e s v. B r o w n , N o. 1 2C R -2 0 3 4 2, 2 0 1 3 W L 4 8 9 8 2 8, at * 4 ( E. D. Mi c h. F e b. 8, 2 0 1 3); H e ns o n v. U nit e d St at e s , 5 5 A. 3 d 8 5 9, 8 6 6 ( D. C. 2 0 1 2); B r o w ell v. D avi d s o n , 5 9 5 F. S u p p. 2 d 9 0 7, 9 1 4 ( N. D. I n d. 2 0 0 9); B r o o k s v.
G a e n zl e , N o. 0 6 -C V -0 1 4 3 6, 2 0 0 9 W L 3 1 5 8 1 3 8, at * 5 ( D. C ol o.
S e pt. 2 9, 2 0 0 9), aff ’d i n p a rt, r e v ’d i n p a rt , 6 1 4 F. 3 d 1 2 1 3 ( 1 0t h
Ci r. 2 0 1 0); N e w M e xi c o v. G a r ci a , 2 1 7 P. 3 d 1 0 3 2, 1 0 3 8 – 3 9 ( N. M.
2 0 0 9); U nit e d St at e s v. D u p r e e , N o. 0 8-C R -0 0 2 8 0, 2 0 0 9 W L
2 3 9 3 4 4 1, at * 1 – 2 ( E. D. P a. A u g. 4, 2 0 0 9), aff ’ d, 6 1 7 F. 3 d 7 2 4 ( 3 d
Ci r. 2 0 1 0); D u k e s v. Mi a mi -D a d e C nt y. , N o. 0 5-C V -2 2 6 6 5, 2 0 0 7
W L 9 7 0 1 8 1 3, at * 1 ( S. D. Fl a. D e c. 2 6, 2 0 0 7).
9 Cf. Mi c h a el D.
W hit e, Hitti n g t h e T a r g et ( o r N ot): C o m p a ri n g
C h a r a ct e ri sti c s of F at al, I nj u ri o u s, a n d N o ni nj u ri o u s P oli c e
S h o oti n g s , 9 P oli c e Q. 3 0 3, 3 0 9 ( 2 0 0 6) (fi n di n g t h at o nl y 1 4 % of
i nt e nti o n al fi r e a r m s di s c h a r g e s b y l a w e nf o r c e m e nt offi ci al s at
citi z e n s w e r e f at al b et w e e n 1 9 8 7 a n d 1 9 9 2).
8

19
e. g. , O r a n g e , 2 0 1 8 W L 4 6 9 1 6 3 4, at * 3; o r t h e y m a y e sc a p e t h e offi c e r’ s p h y si c al t o u c h, e. g. , Si n gl et a r y , 3 7 F.
S u p p. 3 d at 6 0 9.
I n li g ht of t h e s e v a r yi n g s c e n a ri o s, it i s i m p e r ati v e t o
cl a rif y t h e t h r e s h ol d i s s u e of w h e n a “ s ei z u r e” o c c u r s.
C o u nt y of S a c r a m e nt o v. L e wi s , 5 2 3 U. S. 8 3 3, 8 4 3
( 1 9 9 8). T h at i s s u e will d et e r mi n e w h et h e r t h e offi c e r’ s
u s e of f o r c e i s s u bj e ct t o a n y c o n stit uti o n al s c r uti n y at
all, a n d w h et h e r a s u s p e ct t h e r ef o r e m a y c h all e n g e t h e
u s e of f o r c e t h r o u g h a § 1 9 8 3 cl ai m. A n d a s offi c e r s’ u s e
of f o r c e i n c r e a s e s, t h e s e i s s u e s will b e liti g at e d wit h i nc r e a si n g f r e q u e n c y. S e e, e. g. , A vi d a n Y. C o v e r, R e c o nst r u cti n g t h e Ri g ht A g ai n st E x c e s si v e F o r c e , 6 8 Fl a. L.
R e v. 1 7 7 3, 1 7 7 7 ( 2 0 1 6) ( e x pl ai ni n g t h at a § 1 9 8 3 s uit i s
t h e “ p ri m a r y a v e n u e t o o bt ai n a r e m e d y” f o r a p oli c e offi c e r’ s u s e of f o r c e a g ai n st a citi z e n). T h e e v a si o n of
p h y si c al f o r c e e m pl o y e d b y l a w e nf o r c e m e nt i s a n i nc r e a si n gl y c o m m o n o c c u r r e n c e t h at c ri e s o ut f o r a ut h o rit ati v e g ui d a n c e f r o m t hi s C o u rt.
B. R e vi e w i s al s o w a r r a nt e d b e c a u s e t h e T e nt h Ci rc uit’ s d e ci si o n t h r e at e n s t o i m m u ni z e p ot e nti all y e g r egi o u s p oli c e mi s c o n d u ct f r o m c o n stit uti o n al r e vi e w. A s
t hi s C o u rt h a s e x pl ai n e d, i n “t h e c o nt e xt of a n a r r e st o r
i n v e sti g at o r y st o p of a f r e e citi z e n,” t h e o nl y s o u r c e of
“ c o n stit uti o n al p r ot e cti o n a g ai n st p h y si c all y a b u si v e”
a n d e v e n d e a dl y “ g o v e r n m e nt al c o n d u ct” i s “t h e F o u rt h
A m e n d m e nt’ s p r o hi biti o n a g ai n st u n r e a s o n a bl e s eiz u r e s of t h e p e r s o n.” G r a h a m v. C o n n o r , 4 9 0 U. S. 3 8 6,
3 9 4 ( 1 9 8 9); i d. at 3 9 5 ( h ol di n g t h at “all cl ai m s t h at l a w
e nf o r c e m e nt offi c e r s h a v e u s e d e x c e s si v e f o r c e” a g ai n st
a “f r e e citi z e n” m u st b e “ a n al y z e d u n d e r t h e F o u rt h
A m e n d m e nt”). T o p r e v ail o n a § 1 9 8 3 cl ai m of e x c e s si v e
f o r c e u n d e r t h e F o u rt h A m e n d m e nt, a pl ai ntiff m u st
s h o w ( 1) t h at a “ s ei z u r e” of h e r p e r s o n “t o o k pl a c e,” s e e

20
L e wi s , 5 2 3 U. S. at 8 4 3; a n d ( 2) t h at t h e s ei z u r e w a s o bj e cti v el y “ u n r e a s o n a bl e,” G r a h a m , 4 9 0 U. S. at 3 9 7.
I n h ol di n g t h at n o s ei z u r e o c c u r s w h e n a n offi c e r’ s
u s e of f o r c e f ail s t o s u b d u e a s u s p e ct, t h e T e nt h Ci r c uit
h a s i n s ul at e d a b r o a d c at e g o r y of g r a v e p oli c e c o n d u ct —
t h e u s e of f o r c e, i n cl u di n g d e a dl y f o r c e, a g ai n st a fl e ei n g
s u s p e ct — f r o m all c o n stit uti o n al s c r uti n y. I n t h at
c o u rt’ s vi e w, t h e offi c e r s’ u s e e v e n of d e a dl y f o r c e a g ai n st
M s. T o r r e s w a s n ot a “ s ei z u r e,” a n d h e n c e di d n ot i m plic at e M s. T o r r e s’ s c o n stit uti o n al ri g ht s u n d e r t h e F o u rt h
A m e n d m e nt at all. T h e o ut c o m e w o ul d h a v e b e e n n o
diff e r e nt, t h e r ef o r e, if t h e offi c e r s h a d s h ot M s. T o r r e s
d o z e n s of ti m e s — j u st s o l o n g a s M s. T o r r e s w a s a bl e,
e v e n b ri efl y, t o g et a w a y. S e e C a r rill o -O rti z , 2 0 1 9 W L
4 3 9 3 9 8 9, at * 5 ( c o n cl u di n g t h at n o s ei z u r e o c c u r r e d
w h e r e pl ai ntiff all e g e d t h at h e w a s st r u c k b y t e n o ut of
s e v e nt e e n b ull et s fi r e d b y t h e p oli c e b e c a u s e pl ai ntiff
w a s a bl e t o d ri v e “ a s h o rt di st a n c e a w a y”).
T h e s w e e pi n g eff e ct of t h e T e nt h Ci r c uit’ s r uli n g i s a
c o n s e q u e n c e of t h e m a n n e r i n w hi c h t h e c a s e w a s d eci d e d. U n d e r M s. T o r r e s’ s c o r r e ct a s s e s s m e nt t h at s h e
w a s, i n f a ct, “ s ei z e d,” t h e a n al y si s of h e r cl ai m w o ul d
h a v e t u r n e d o n a n i n q ui r y i nt o t h e o bj e cti v e r e a s o n a bl en e s s of t h e offi c e r s’ a cti o n s. S e e T e r r y , 3 9 2 U. S. at 9
(“[ W] h at t h e C o n stit uti o n f o r bi d s i s n ot all s e a r c h e s a n d
s ei z u r e s, b ut u n r e a s o n a bl e s e a r c h e s a n d s ei z u r e s.” ( cit ati o n o mitt e d)). T h e T e nt h Ci r c uit, h o w e v e r, c o n cl u d e d
t h at M s. T o r r e s f ail e d t o s ati sf y t h e t h r e s h ol d F o u rt h
A m e n d m e nt q u e sti o n of w h et h e r t h e r e w a s a “ s ei z u r e”
of h e r p e r s o n i n t h e fi r st i n st a n c e. I n ot h e r w o r d s, M s.
T o r r e s’ s c a s e f all s o ut si d e t h e p u r vi e w of t h e F o u rt h
A m e n d m e nt. T h e c o u rt’ s d e ci si o n t h u s c ut s off t h e i nq ui r y i nt o t h e r e a s o n a bl e n e s s of t h e offi c e r s’ a cti o n s b ef o r e t h at a n al y si s c a n e v e n b e p e rf o r m e d.

21
T h e p r a cti c al eff e ct of t h e T e nt h Ci r c uit’ s r uli n g will
b e a r bit r a ril y a s y m m et ri c al li a bilit y f o r p oli c e offi c e r s’
o bj e cti v el y u n r e a s o n a bl e u s e s o f p h y si c al f o r c e ( a n d,
h e n c e, a r bit r a ril y a s y m m et ri c al r eli ef f o r s u s p e ct s i nj u r e d b y t h at f o r c e). F o r e x a m pl e, s u p p o s e Offi c e r A a n d
Offi c e r B e m pl o y t h e s a m e o bj e cti v el y u n r e a s o n a bl e
f o r c e i n t h ei r att e m pt s t o a r r e st, r e s p e cti v el y, S u s p e ct A
a n d S u s p e ct B. Offi c e r A’ s a p pli c ati o n of t h at f o r c e f o rt uit o u sl y k n o c k s S u s p e ct A u n c o n s ci o u s, a n d S u s p e ct A
i s t a k e n i nt o c u st o d y. Offi c e r B’ s a p pli c ati o n of t h at
s a m e f o r c e c ri p pl e s S u s p e ct B a n d p e r m a n e ntl y bli n d s
h e r i n o n e e y e, b ut S u s p e ct B m a n a g e s t o b a r el y li m p
i nt o a d a r k all e y a n d b ri efl y e v a d e c a pt u r e. U n d e r t h e
T e nt h Ci r c uit’ s r ul e, Offi c e r A’ s u s e of f o r c e vi ol at e s S u sp e ct A’ s F o u rt h A m e n d m e nt ri g ht s, b ut t h e i d e nti c al u s e
of f o r c e b y Offi c e r B d o e s n ot e v e n i m pli c at e S u s p e ct B’ s
F o u rt h A m e n d m e nt ri g h t s. T h e r e i s n o r e a s o n e d b a si s
f o r t hi s di sti n cti o n.
Ulti m at el y, t h e f a ctfi n d e r mi g ht c o n cl u d e t h at t h e offi c e r s i n t hi s c a s e w e r e j u stifi e d i n u si n g t h e p a rti c ul a r
l e v el of f o r c e t h e y e m pl o y e d, b a s e d o n t h e t ot alit y of t h e
ci r c u m st a n c e s a n d t h e d ef e r e n c e d u e a n offi c e r’ s s plit s e c o n d j u d g m e nt s o n t h e s c e n e. S e e C o u nt y of L o s A ng el e s v. M e n d e z , 1 3 7 S. Ct. 1 5 3 9, 1 5 4 7 ( 2 0 1 7) (“ W h e n a n
offi c e r c a r ri e s o ut a s ei z u r e t h at i s r e a s o n a bl e, t a ki n g
i nt o a c c o u nt all r el e v a nt ci r c u m st a n c e s, t h e r e i s n o v ali d
e x c e s si v e f o r c e cl ai m.”). A n d t h e offi c e r s m a y b e i mm u n e f r o m li a bilit y if t h e c o n stit uti o n al vi ol ati o n w a s
n ot cl e a rl y e st a bli s h e d at t h e ti m e of t h ei r c o n d u ct. S e e
P e a r s o n v. C all a h a n , 5 5 5 U. S. 2 2 3, 2 4 3– 4 5 ( 2 0 0 9). B ut
p oli c e offi c e r s’ u s e of f o r c e, i n cl u di n g d e a dl y f o r c e,
s h o ul d n ot b e e nti r el y i m m u n e f r o m c o n stit uti o n al s c r uti n y b a s e d s ol el y o n t h e h a p p e n st a n c e t h at t h e s u s p e ct
i s a bl e t o r u n a w a y. T hi s C o u rt s h o ul d g r a nt c e rti o r a ri

22
t o c o r r e ct t h e T e nt h Ci r c uit’ s r ul e, w hi c h i s c o nt r a r y t o
t hi s C o u rt’ s p r e c ed e nt a n d c o m m o n s e n s e, a n d w hi c h
p r e v e nt s c o u rt s f r o m e v e r r e a c hi n g t h o s e i m p o rt a nt
q u e sti o n s.
C O N C L U SI O N
T h e p etiti o n f o r a w rit of c e rti o r a ri s h o ul d b e g r a nt e d.
R e s p e ctf ull y s u b mitt e d,
G I N G E R D. A N D E R S
C o u n s el of R e c o r d
M U N G E R ,T OL L ES & O LS O N L L P
1 1 5 5 F S t r e e t N W, 7 t h Fl o o r
W a s hi n g t o n, D. C. 2 0 0 0 4
( 2 0 2) 2 2 0-1 1 0 0
gi n g e r. a n d e r s @ m t o. c o m
D A V I D P. T H O R E S O N
d a vi d. t h o r e s o n @ m t o. c o m
B R I A N J. S P R I N G E R
b ri a n. s p ri n g e r @ m t o. c o m
M U N G E R ,T OL L ES & O LS O N L L P
3 5 0 S. G r a n d A v e., 5 0 t h Fl o o r
L o s A n g el e s, C A 9 0 0 7 1
( 2 1 3) 6 8 3 -9 1 0 0

C o u n s el f o r A mi ci C u ri a e F o u rt h A m e n d m e nt S c h ol a r s

O

CT OB ER

4, 2 0 1 9

A P P E N DI X

1a

A P P E N DI X
Li s t of A mi ci C u ri a e
T hi s A p p e n di x p r o vi d e s a mi ci ’ s titl e s a n d i n stit uti o n al affili ati o n s f o r i d e ntifi c ati o n p u r p o s e s o nl y, a n d
n ot t o i m pl y a n y e n d o r s e m e nt of t h e vi e w s e x p r e s s e d
h e r ei n b y a mi ci ’ s i n stit uti o n s.
M a r y a m A h r a nj a ni , A s s o ci at e P r of e s s o r of L a w &
D o n L. & M a b el F. Di c k a s o n P r of e s s o r, U ni v e r sit y of
N e w M e xi c o S c h o ol of L a w
L a r a B a z el o n , P r of e s s o r of L a w; Di r e ct o r, C ri mi n al
J u v e nil e J u sti c e Cli ni c; Di r e ct o r, R a ci al J u sti c e Cli ni c,
U ni v e r sit y of S a n F r a n ci s c o S c h o ol of L a w
Jo
T ri al
S kill s
j e ct,

h n H. Bl u m e , S a m u el F. L ei b o wit z P r of e s s o r of
T e c h ni q u e s; Di r e ct o r of Cli ni c al, A d v o c a c y a n d
P r o g r a m s; Di r e ct o r, C o r n ell D e at h P e n alt y P r oC o r n ell L a w S c h o ol

G a b ri el “ J a c k ” C hi n , E d w a r d L. B a r r ett, J r. C h ai r
of L a w; M a rti n L ut h e r Ki n g, J r. P r of e s s o r of L a w; Dir e ct o r of Cli ni c al L e g al E d u c ati o n , U ni v e r sit y of C alif o rni a, D a vi s S c h o ol of L a w
R u s s ell D. C o v e y , P r of e s s o r of L a w, G e o r gi a St at e
U ni v e r sit y C oll e g e of L a w
A n t h o n y Dill of , P r of e s s o r of L a w,
U ni v e r sit y L a w S c h o ol

W a y n e St at e

J ul e s E p s t ei n , P r of e s s o r of L a w; Di r e ct o r of A d v oc a c y P r o g r a m, T e m pl e U ni v e r sit y B e a sl e y S c h o ol of L a w

2a
B ri a n G alli ni , P r of e s s o r of L a w; Di r e ct o r of O nli n e
I niti ati v e s, U ni v e r sit y of A r k a n s a s S c h o ol of L a w
B r a n d o n L. G a r r e t t , L. N eil Willi a m s, J r. P r of e s s o r
of L a w, D u k e U ni v e r sit y S c h o ol of L a w
C y n t hi a G o d s o e , P r of e s s o r of L a w, B r o o kl y n L a w
S c h o ol
C a t h e ri n e M. G r o s s o , P r of e s s o r of L a w, Mi c hi g a n
St at e U ni v e r sit y C oll e g e of L a w
D a vi d A. H a r ri s , S all y A n n S e m e n k o E n d o w e d
C h ai r a n d P r of e s s o r of L a w, U ni v e r sit y of Pitt s b u r g h
S c h o ol of L a w
J a n e t C. H o eff el , C at h e ri n e D. Pi e r s o n P r of e s s o r of
L a w, T ul a n e U ni v e r sit y S c h o ol of L a w
A n d r e w H o r wi t z , P r of e s s o r of L a w; A s si st a nt D e a n
f o r E x p e ri e nti al E d u c ati o n, R o g e r Willi a m s U ni v e r sit y
S c h o ol of L a w
Ni c h ol a s K a h n -F o g el , A s s o ci at e P r of e s s o r of L a w,
Willi a m H. B o w e n S c h o ol of L a w U ni v e r sit y of A r k a ns a s at Littl e R o c k
T h e a J o h n s o n , A s s o ci at e P r of e s s o r of L a w, U ni v e rsit y of M ai n e S c h o ol of L a w
D a ni el T. K o bil , P r of e s s o r of L a w, C a pit al U ni v e rsit y L a w S c h o ol
C a r ri e L e o n e t ti , A s s o ci at e P r of e s s o r of L a w a n d
A s s o ci at e D e a n E q uit y , U ni v e r sit y of Au c kl a n d S c h o ol
of L a w
K e n L e v y , H olt B. H a r ri s o n P r of e s s o r of L a w, P a ul
M. H e b e rt L a w C e nt e r, L o ui si a n a St at e U ni v e r sit y

3a
K a t h e ri n e M a cf a rl a n e , A s s o ci at e
L a w, U ni v e r sit y of I d a h o C oll e g e of L a w

P r of e s s o r of

Mi c h a el J. Z. M a n n h ei m e r , P r of e s s o r of L a w,
N o rt h e r n K e nt u c k y U ni v e r sit y S al m o n P. C h a s e C oll e g e of L a w
Mi c h a el M el t s n e r , M att h e w s Di sti n g ui s h e d U niv e r sit y P r of e s s o r of L a w, N o rt h e a st e r n U ni v e r sit y
S c h o ol of L a w
C oli n Mill e r , P r of e s s o r of L a w, U ni v e r sit y of S o ut h
C a r oli n a S c h o ol of L a w
E ri c Mill e r , P r of e s s o r of L a w; L e o J. O' B ri e n F ell o w ,
L o y ol a L a w S c h o ol, L o s A n g el e s
R a c h el M o r a n , A s si st a nt P r of e s s o r of L a w, U ni v e rsit y of St. T h o m a s S c h o ol of L a w
S a m N e w t o n , A s si st a nt P r of e s s o r of L a w, U ni v e rsit y of I d a h o C oll e g e of L a w
J e r r y E. N o r t o n , P r of e s s o r E m e rit us of L a w, L o y ol a
U ni v e r sit y C hi c a g o S c h o ol of L a w
L. S o n g Ri c h a r d s o n , D e a n a n d C h a n c ell o r’ s P r of e s s o r of L a w, U ni v e r sit y of C alif o r ni a, I r vi n e S c h o ol of
La w
A m y D. R o n n e r , E m e rit u s P r of e s s o r of L a w, St.
T h o m a s U ni v e r sit y S c h o ol of L a w
S e t h S t o u g h t o n , A s s o ci at e P r of e s s o r of L a w, U niv e r sit y of S o ut h C a r oli n a S c h o ol of L a w
D e a n A. S t r a n g , Vi siti n g P r of e s s o r of L a w, U ni v e rsit y of S a n F r a n ci s c o S c h o ol of L a w
S uj a A. T h o m a s , P e e r a n d S a r a h P e d e r s e n P r of e ss o r of L a w, U ni v e r sit y of Illi n oi s C oll e g e of L a w

4a
R o d n e y U p h off , El w o o d L. T h o m a s Mi s s o u ri E nd o w e d P r of e s s o r E m e rit u s of L a w , U ni v e r sit y of Mi ss o u ri S c h o ol of L a w
S a m u el R. Wi s e m a n , M c C o n n a u g h h a y a n d Ri s sm a n P r of e s s o r of L a w, Fl o ri d a St at e U ni v e r sit y C oll e g e
of L a w
J o n a t h a n Wi t m e r -Ri c h , A s s o ci at e D e a n f o r A c ade m ic
E n ri c h m e nt; J o s e p h
C.
H o st etl e r– B a k e r
H o st etl e r P r of e s s o r of L a w, Cl e v el a n d M a r s h all C oll e g e
of L a w
J o r d a n Bl ai r W o o d s , A s si st a nt P r of e s s o r of L a w,
U ni v e r sit y of A r k a n s a s S c h o ol of L a w

